DOE/IG-0513




          AUDIT
         REPORT

                                     FINANCIAL ASSISTANCE FOR
                                  BIOMASS-TO-ETHANOL PROJECTS




                                              JULY 2001




     U.S. DEPARTMENT OF ENERGY
    OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                  U. S. DEPARTMENT OF ENERGY
                                        Washington, DC 20585

                                              July 16, 2001


MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Financial Assistance for
                         Biomass-to-Ethanol Projects"

BACKGROUND

The Department of Energy (Department) has the strategic objective of reducing the vulnerability of the U.S.
economy to disruptions in energy supplies. As one way of meeting this objective, the Department has had a
biomass-to-ethanol (biomass) conversion program for several years. Working under the Assistant Secretary
for Energy Efficiency and Renewable Energy, the Office of Fuels Development manages the biomass
program, which had a goal to build a full-scale commercial biomass production facility by 2000. To meet
this goal, the Department awarded financial assistance to two firms during 1997 and 1998. This assistance
was provided through cost-sharing cooperative agreements. One firm has received $4 million and the other
has received $10.95 million. The Office of Fuels Development indicated that these were the only two awards
that could have led to meeting its program goal.

During the audit, management stated that these funds were "earmarked" through the appropriations process
and, as such, this matter did not involve a case of "discretionary financial assistance." Management further
asserted that, because of the appropriations action, its latitude in managing these projects was severely
limited. Although the timing of the award of at least one of the agreements appeared to have preceded the
earmarking action, we confirmed that the pertinent appropriations bill included specific congressional
direction in this matter.

Taking management's concerns into consideration, the objective of the audit was to determine whether the
Department is meeting its biomass program goal.

RESULTS OF AUDIT

The Department did not meet its programmatic goal of having a full-scale commercial biomass production
facility built by 2000. In fact, construction of the two facilities had not even started as of the completion of
this audit; and it appeared unlikely that construction would begin in the near term because earlier design and
site preparation targets have not been met. Despite assertions by the two companies that their technologies
were proven and ready for commercial application, both companies have not fulfilled the representations
contained in their proposals or the terms of their financial assistance agreements.

We noted that the Department had not implemented recommendations made by the merit reviewers of the
firms' proposals nor had it fully evaluated both firms' financial capability prior to awarding funds. This
contributed to the Department's inability to meet its biomass goal. As of this date, the Department has spent
nearly $15 million on these projects and there is no biomass production facility on the horizon. Without a
production facility, the Department will not meet its Fiscal Year 2001 Performance Plan target of producing
6 million gallons of ethanol from biomass. We recommended that the Assistant Secretary for Energy
                                                      -2-

Efficiency and Renewable Energy ensure that merit reviewer concerns are addressed prior to awards being
made and that financial assistance be withheld, suspended, or terminated when recipients do not comply
with the terms of their assistance awards.

MANAGEMENT REACTION

Management concurred with the report's recommendations. However, it disagreed with the report's
conclusions regarding risk reduction and the merit review process. As noted previously, management
further asserted that because of the congressional "earmark" it could not apply certain project management
principles to these projects. While we recognize the complexity that the earmark adds to the management
process, in our judgment, the earmark did not preclude the Department from applying basic performance
conditions. A remedy was available, as awkward as it might have been. At a minimum, the Department
could have advised the Congress of the failure of the firms to satisfy their obligations, and sought legislative
relief. Indeed, as the Department essentially points out in its response to a draft of this report, a
reprogramming action was an available remedy.

However, management did agree to examine its policies and practices relative to the award, monitoring, and
termination of financial assistance. We were informed that by September 30, 2001, recommendations
resulting from the review will be forwarded to the Assistant Secretary for Energy Efficiency and Renewable
Energy for concurrence to ensure the program's practices adhere to all applicable Department procedures
regarding the manner in which the Department awards financial assistance. Management's commitment to
undertake the review of its policies and procedures is a positive action. However, there can be no final
conclusion to this matter until the review is completed and positive change is taken to meet the intent of the
recommendations.


Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
FINANCIAL ASSISTANCE FOR BIOMASS-TO-ETHANOL
PROJECTS

TABLE OF
CONTENTS


                Overview

                Introduction and Objective ............................................... 1


                Conclusions and Observations ........................................ 1


                Financial Assistance For Biomass-To-Ethanol
                Projects


                Details of Finding ............................................................ 3


                Recommendations and Comments ............................... 11


                Appendix


                Scope and Methodology................................................ 12
Overview
INTRODUCTION      The Department of Energy (DOE) has the strategic objective of
AND OBJECTIVE     reducing the vulnerability of the U.S. economy to disruptions in energy
                  supplies. As one way of meeting this objective, DOE has had a
                  biomass-to-ethanol (biomass) conversion program for several years. In
                  the biomass process, agricultural wastes, such as corn fiber, rice straw,
                  and the unusable portions of sugar cane plants, are converted to ethanol.
                  The ethanol can then be mixed with petroleum products, such as
                  gasoline, to produce fuel that can be used for transportation and
                  industrial purposes.

                  Working under DOE's Assistant Secretary for Energy Efficiency and
                  Renewable Energy (EERE), the Office of Fuels Development (OFD)
                  manages the biomass program. To leverage its resources, OFD can
                  provide private sector firms with funding that is to be used for biomass
                  projects unlikely to be conducted without Government support.

                  OFD's program goal was to build a full-scale commercial biomass
                  production facility by 2000. To meet its program goal, OFD awarded
                  financial assistance to two firms during 1997 and 1998. This assistance
                  was provided through cost-sharing cooperative agreements awarded by
                  the Golden Field Office (Golden). OFD indicated that these were the
                  only two awards that could have led to meeting its program goal. One
                  firm is Company A, which received $4 million under a November 1998
                  cooperative agreement that resulted from an earmark. The other firm is
                  Company B, which received $10.95 million from DOE under a May
                  1997 cooperative agreement1. Although initial funding received by
                  Company B was not earmarked, $4 million of earmarked funds was
                  received in Fiscal Year (FY) 1999.

                  The audit objective was to determine if DOE is meeting its biomass
                  program goal.

CONCLUSIONS AND   DOE did not meet its biomass program goal to have a full-scale
OBSERVATIONS      commercial biomass production facility built by 2000. Construction
                  has not started. Company A and Company B have not fulfilled the
                  representations contained in their proposals or the terms of their
                  financial assistance agreements. Although funding was made available
                  to these firms through Congressional earmarks, the Department was
                  not, in our judgement, precluded from exercising basic performance
                  conditions.

                  ______________
                  1
                   The Office of Inspector General practice is not to disclose the names of
                   subcontractors and prime contractors in audit reports, other than those operating
                   DOE facilities. The emphasis of our reports is to address Departmental operational
                   weaknesses and due consideration is given to these companies’ involvement in work
                   outside DOE.
Page 1                                                     Introduction and Objective/
                                                           Conclusions and Observations
         OFD did not achieve its goal because it did not solicit competitive
         proposals before making any awards, implement recommendations
         made by the merit reviewers of the Company A and Company B
         proposals, and fully evaluate both firms' financial capability prior to
         awarding funds. OFD has spent $14.95 million through April 2001 and
         there is no production facility on the horizon. Without a production
         facility, OFD probably will not meet its Fiscal Year (FY) 2001 DOE
         Performance Plan target of producing 6 million gallons of ethanol from
         biomass.

         The audit identified a material internal control weakness that
         management should consider when preparing its yearend assurance
         memorandum on internal controls.




                                      _____(Signed)__________
                                      Office of Inspector General




Page 2                                      Conclusions and Observations
Financial Assistance For Biomass-To-Ethanol Projects
DOE Not Meeting     DOE did not meet its program goal to have a full-scale commercial
Program Goal        biomass production facility built by 2000. Construction of such a
                    facility has not been started. It is unlikely that construction will begin
                    soon because earlier design and site preparation targets have not been
                    met.2 As of December 2000, neither target had been met, despite
                    assertions by both Company A and Company B that their technologies
                    were proven and ready for commercial application. Both firms, from
                    the outset, have not fulfilled the representations contained in their
                    proposals or the terms of their DOE financial assistance awards.

                                                       Company A

                    In its March 1998 proposal, Company A stated that it would execute an
                    Engineering, Procurement, and Construction (EPC) contract,3 a contract
                    essential to securing third-party construction financing, by September
                    1998, with construction financing to be secured immediately thereafter.
                    The proposal also stated that Company A was to commence
                    construction of a 12-million-gallon-per-year fuel-grade plant in 1999.
                    Company A asserted that its technology was proven and ready for
                    commercial application. By the terms of Golden's November 1998
                    financial assistance award, Company A was to perform engineering
                    work and execute an EPC contract to allow financing for construction,
                    with all award activities to be completed by June 1999.

                    Although Company A has produced some results, no construction has
                    occurred. Company A has developed process flow and piping and
                    instrumentation diagrams for its plant. Company A has also provided
                    DOE with reports covering its commercialization efforts,
                    microorganism testing, filter applications, and markets for ethanol.
                    Money spent on surveys, permits, and licenses may not have much
                    benefit, however, because Company A no longer prefers the site for
                    which they were purchased. As of December 2000, Company A did not
                    have an executed EPC contract, however, it had been doing research
                    and development work on its process. OFD has stated that Company A
                    will not execute an EPC contract due to the poor economics of the
                    project. DOE is in the process of closing out the Company A award.

                    ————————————
                    2
                     DOE's 1998 Performance Agreement with the President had the target of completing
                    the design of a 10-million-gallon-per-year-first-of-a-kind biomass refinery. The 1999
                    Performance Agreement had the target of completing site preparation.
                    3
                      An EPC contract is entered into by the firm seeking investors, such as Company A or
                    Company B, and a qualified engineer. The contract can provide for liquidated
                    damages, process guarantees, performance testing, guaranteed completion dates,
                    insurance and bonding, and other such protections that the investors may reasonably
                    require.


Page 3                                                                         Details of Finding
                                              Company B

         In its February 1997 proposal to DOE, Company B stated that it was
         seeking financial assistance for commercial demonstration of its
         biomass technology. Company B asserted that its technology had
         already been proven at the pilot plant level and that process refinement
         would last only three months. Most importantly, the firm represented
         that it would have an EPC contract within 60 days of receiving DOE
         funding. Company B also stated that it would construct and begin
         operation of a 10-million-gallon-per-year biomass plant within 18
         months of receiving DOE funding.

         In May 1997, Golden awarded financial assistance to Company B to
         share in the cost of activities that needed to be completed before
         construction of a plant could begin. The award's Statement of Work
         stated that a key deliverable would be completed "when the EPC
         contractor accepts the validation efforts to prove the process design and
         provides the necessary process guarantees and warranties required by
         the project lenders." The project period was to end March 31, 1999.

         Based on reports filed by Company B, it appeared to have made more
         progress toward construction of a plant than Company A had.
         According to the reports, construction documents had been developed
         such as process flow diagrams, equipment lists, and piping and
         instrumentation diagrams. It had also moved equipment to the site that
         was to be used for ethanol production. However, on August 18, 2000,
         Golden notified Company B that it was suspending the cooperative
         agreement because Company B was unable to reach financial closing.4
         EERE told us that Company B was unable to reach financial closing
         due to risk uncertainties related to process performance. As of
         December 2000, 43 months after DOE began providing financial
         assistance, Company B still lacked an executed EPC contract.
         However, on January 17, 2001, EERE's Assistant Secretary notified
         Company B that DOE would make $6 million available to Company B
         under the existing cooperative agreement, until December 31, 2001.
         EERE indicated in the notice that the funds would be obligated only if
         Company B executes an EPC contract and achieves financial closing.
         According to EERE, Company B has acquired $45 million in equity
         commitments for the project and a major underwriter is selling bonds to
         acquire the funds needed to achieve financial closure.


         ————————————
         4
          Financial closing is putting together a financing package. It includes lining up
         investors and providing them sufficient assurances of the feasibility of a project.


Page 4                                                                 Details of Finding
Need To Manage Risk    The biomass program faces significant technological and financial risk.
                       The program could fail because the technology is first-of-a-kind and
                       unproven. In addition to the risk that the technology might not work,
                       there is the financial risk that the program might fail for lack of private
                       sector financing. OFD and Golden have cited market uncertainty
                       regarding demand and pricing for ethanol as potentially significant
                       barriers to attracting investor financing. Concerning demand, a DOE
                       analysis showed that alternative fuels' share of the domestic energy
                       market would not increase even if crude oil prices increased to $40 per
                       barrel. Concerning pricing, the National Research Council has stated
                       that potentially lower cost technologies being developed outside of
                       DOE threaten the success of OFD's biomass program unless there is a
                       significant breakthrough that markedly lowers production costs.
                       Congress recognized these risks when enacting the Biomass Research
                       and Development Act of 2000, which states that the two key challenges
                       to be overcome are (1) finding new technology and (2) reducing
                       biomass conversion cost.

                       If DOE is to manage these risks successfully, it must, like a venture
                       capitalist, have controls in place that provide reasonable assurance of
                       selecting the projects offering the best promise for success; allow for an
                       evaluation of a potential recipient's ability to perform; ensure sharing of
                       costs in accordance with risk indicators; and provide the ability to exit
                       projects that fail to perform as promised. Notwithstanding the
                       Congressional earmarks that mandated funding to Company A and B,
                       basic performance controls could still be placed on the DOE related
                       activities of these firms. DOE had such controls as well as the requisite
                       authority to exercise them both before and after awarding funds when
                       warning indicators present themselves.

Despite Risk           In spite of the risks associated with achieving the biomass goal of a
Indicators, Controls   production facility by 2000, OFD did not solicit proposals
Not Implemented        competitively because it believed that there were only two companies at
                       the time with the technology at the stage of development needed to
                       achieve commercial production. Since then, however, OFD and Golden
                       have issued a competitive solicitation. Although independent technical
                       professionals conducted a merit review of both proposals, OFD did not
                       heed the advice of the merit reviewers or fully evaluate the firms'
                       financial capabilities. This entire process was complicated by the
                       Congressional earmarks, which were discussed earlier in this report.

                                                      Company A

                       While the merit reviewers concluded that Company A's proposed
                       biomass project had some merit, they expressed significant concerns

Page 5                                                                      Details of Finding
         about its technical and financial aspects. For instance, one reviewer
         wrote:5

                 There is really very little regarding the actual process
                 that Company A wants funded. [There are] some
                 general sketches of the process, but almost no real
                 substantive materials. This raises numerous questions
                 and comes across like "just trust us, we're the good
                 guys." [Further,] this…proposal would cost $9.3
                 million and after these monies are gone the results will
                 be a paper product.

         Concerning the financial side of the Company A project, a reviewer
         wrote:

                 This [project financing] is the most important issue in
                 the proposal and it lacks information regarding
                 financing the project after Phase I. The financial
                 information…dates back to 1994…. However, if there
                 is an interest by Bank C,6 [Company A] should provide
                 current information to support the interest.

         In spite of the signs of risk, OFD did not implement risk mitigation
         measures recommended by the merit reviewers. For instance, one merit
         review recommendation was that OFD obtain assurance that Company
         A would have a financing package in place within five months.
         Subsequently, OFD requested that Company A provide current
         commitment letters from investors. In response, Company A provided
         (1) a statement indicating that one of the investors was still interested
         and (2) a letter of interest, rather than letter of commitment, from an
         additional company. Even though Company A did not provide the
         commitment letters requested, OFD made the award to Company A
         without assurance that a financing package would be available.




         ———————————–
         5
           All merit review comments shown here concerning the Company A proposal were
         taken from the comments made by individual merit reviewers. Many of the negative
         comments of the individual merit reviewers either did not appear in the "Merit Review
         Committee Summary Report" (which was the merit review report provided to the
         EERE selection official) or were converted to quasi-positive statements about the
         potential of the Company A proposal.
         6
           "Bank C" has been substituted for the actual name of the bank.

Page 6                                                              Details of Finding
         There was also a merit review recommendation that DOE place "very
         tight constraints" on funding provided to Company A and use a 50/50
         cost share throughout the award. Company A had proposed that DOE
         pay most of the costs for the project's first phase. Such a funding
         strategy placed DOE's money at risk—not Company A's—if Company
         A did not perform well. Ultimately, Golden established a cost share
         arrangement where DOE would pay 77 percent of the project's first
         phase and Company A would pay 23 percent.

         The merit reviewers also recommended that funding to Company A be
         discontinued if the firm did not provide key first phase deliverables,
         which included the EPC contract. Instead of discontinuing DOE's
         funding after it became apparent that Company A would not execute an
         EPC contract, OFD and Golden modified the award to delete the second
         phase and continued to fund Company A. OFD maintained that it
         modified the scope of the Company A project to change the co-product
         to one that would have a higher return on investment and lower the
         technological risk, but that the market for the new co-product became
         depressed. The second phase was supposed to result in detailed
         engineering design for construction. Instead, after deletion, Company
         A worked on additional research and development tasks related to its
         biomass process and the new co-product that were added to the first
         phase.

                                      Company B

         Regarding Company B, two reviewers wrote:

                There is not enough data to make a detailed evaluation,
                including economics, of the project. There is enough
                information to raise very serious questions of its
                success. It appears to have serious defects from
                feedstock procurement to the final state of processing.

                The amount of research and development that needs to
                be done before the plant becomes operational will be
                significantly larger, more time consuming, and more
                expensive than anticipated by Company B. [However,]
                if Company B is successful in raising the majority of
                the project funding from private investors, I
                recommend that the DOE consider assisting in this
                effort, but should keep a watchful eye on the progress
                made. If weaknesses in the execution of the proposal



Page 7                                                    Details of Finding
                become apparent, a mechanism should be in place that
                will allow DOE to have a say, similar to provisions that
                venture capitalists require (instead of a "blank check").

         Merit reviewers pointed out that the success of Company B's
         technology was very much in doubt, that OFD should closely monitor
         Company B's progress, and that OFD and Golden should respond to
         problems in project execution as a venture capitalist would. We noted
         that although OFD took action to address merit reviewer comments,
         such as providing Company B with a list of questions, OFD and Golden
         could have done much more, such as ensuring that the award contained
         controls commensurate with the level of project risk identified by the
         merit reviewers.

         Additionally, OFD could have withheld, suspended, or terminated
         Company B's funding when it became apparent that it would not fulfill
         the terms of its financial assistance awards. OFD, however, continued
         to fund Company B after DOE reached its original funding ceiling,
         even though Company B had not executed an EPC contract. At the
         time of award, DOE's stated intent was to pay 15 percent of costs and
         Company B 85 percent. In July 1998, as DOE reached its 15 percent
         cost share ceiling, Company B submitted its final invoice for
         reimbursement and stated, "No further Federal cost share will be
         requested." Nevertheless, OFD later provided an additional $5 million
         to Company B in Amendment 4 of the award. According to OFD, it
         was directed to provide the $5 million by the FY 1999 appropriation
         covering biofuels programs. OFD provided the $5 million for financial
         closing, which never occurred. However, instead of directing Company
         B to return the $5 million as required by the award terms, OFD allowed
         the firm to keep the money—which, according to Company B reports
         was spent on activities that were not authorized by the statement of
         work at the time the money was awarded—and retroactively authorized
         the activities that the money was spent on.

                                 Firms' Financial Status

         Readily available financial data indicated that both firms might have
         difficulty meeting their share of project costs. For example, reports we
         obtained from Dun & Bradstreet showed that Company B had net losses
         in 1997 and 1998, with a positive net worth of $1.1 million in 1997 and
         a negative net worth of $2.2 million in 1998. Company A had a
         negative net worth of about $3.5 million prior to the DOE award.
         However, DOE did not adequately evaluate the applicants' financial
         ability to meet the negotiated cost share. For example, DOE may not


Page 8                                                      Details of Finding
         have been aware of Company A's negative net worth since it failed to
         obtain financial statements from Company A prior to the award.

                                    DOE's Explanation

         OFD and Golden defended the awards made to Company A and
         Company B on several grounds. OFD stated that Congress had
         earmarked $4 million for the Company A project and $4 million for the
         Company B project and noted that such earmarking limited DOE's
         flexibility with regard to funding the projects. OFD and Golden stated
         that they had addressed Company A merit review concerns by
         incorporating special provisions into the award, such as requiring
         support documents for DOE payments, increasing DOE's involvement
         in the project, and by providing an overall 50/50 cost share for the
         entire project. Project documents showed that Golden had notified
         Company A and Company B of concerns including significant delays in
         securing non-DOE financing and the lack of an executed EPC contract.
         OFD and Golden stated that financial assistance would not be
         discontinued if a project were addressing DOE program objectives
         unless there were indications of fraud, waste, or abuse. EERE stated
         that if Company B's financial plans are realized, EERE's total project
         leveraged cost share would be greater than nine-to-one. Finally, EERE
         stated that while it has not met its program goal in terms of timing, it is
         likely to meet its more important objective to build a first-of-a-kind
         biomass production facility.

         This explanation is not persuasive for several reasons. Although OFD
         may have felt it was obligated to begin making earmarked funds
         available to the firms, it had no obligation to continue providing funds,
         whether earmarked or otherwise, once it became clear that those firms
         were not fulfilling award terms. Although there may not be a
         regulatory level of due diligence for evaluating applicants, good
         business judgment would argue against placing millions of dollars of
         taxpayer money into projects that have been identified by merit
         reviewers as risky, without implementing the basic safeguards
         recommended by those reviewers.

         The earmarks do not prelude the Department from applying basic
         performance conditions. At a minimum, the Department could have
         notified Congress of the failure of the firms to satisfy their




Page 9                                                       Details of Finding
                       obligations, and sought legislative relief. Indeed, as the Department
                       essentially points out in its response to a draft of this report, a
                       reprogramming action was an available remedy.


Delays And Increased   As a result of not mitigating the risks inherent in the Company A and
Costs To DOE           Company B awards, DOE is likely to be delayed in meeting its
                       commitment to reduce oil imports and the vulnerability of the Nation to
                       energy supply disruptions. The goal of a production plant in 2000 is
                       unmet. Further, it is unlikely DOE will achieve its FY 2001
                       Performance Plan target of producing 6 million gallons of ethanol from
                       biomass.

                       DOE's cost share for both projects has grown significantly. DOE
                       continued to pay nearly all cost share contributions for the Company A
                       project, even though OFD has acknowledged that it would likely
                       receive no value from the project toward achieving its production goal.
                       According to the most recent amendment to the Company A award,
                       DOE's cost share has remained constant at about $4 million, while
                       Company A's decreased from $4.39 million to $1.33 million. DOE's
                       overall negotiated cost share has increased from 48 percent to 75
                       percent, while Company A's share has decreased from 52 percent to 25
                       percent.

                       According to the amended Company B award, DOE's paid cost share
                       has nearly doubled from $5.95 million to $10.95 million and Company
                       B's estimated cost share has decreased from $33.91 million to $18.76
                       million. Even with a lower cost share, Company B was still supposed
                       to pay more than half of the project costs. However, as of May 2000,
                       DOE had paid 58 percent of actual project costs.

                       To some degree, the goal of a production plant in 2000 may not have
                       been met because of market conditions. For example, EERE cited an
                       unacceptable rate of return and high estimated costs as among the
                       reasons Company A would not execute an EPC contract. Conversely,
                       EERE must accept responsibility for the $14.95 million of taxpayer
                       funds that have been provided to Company A and Company B without
                       any construction resulting. Financial assistance for alternative fuels
                       projects needs to be better controlled if situations similar to Company A
                       and Company B are to be avoided.




Page 10                                                                   Details of Finding
RECOMMENDATIONS    We recommend that the Assistant Secretary for Energy Efficiency and
                   Renewable Energy ensure that alternative fuels project officials:

                        1. Prior to award, address merit reviewer concerns and
                           recommendations, and verify the ability of financial assistance
                           applicants to meet project financial commitments; and,

                        2. Restrict project funding when recipients do not comply with
                           award terms, including withholding, suspending, or
                           terminating funding.


MANAGEMENT         Management concurred with the recommendations however, it
REACTION           disagreed with the report's conclusions regarding commercialization
                   and risk reduction, earmarks, and the merit review process. EERE did
                   agree to examine its policies and practices relative to the award,
                   monitoring, and termination of financial assistance. By September 30,
                   2001, recommendations resulting from the review will be forwarded to
                   EERE's Assistant Secretary for concurrence to ensure the program's
                   practices adhere to all applicable DOE procedures regarding the manner
                   in which DOE awards financial assistance.


AUDITOR COMMENTS   Although management concurred with the recommendations, until the
                   review is completed and positive action is taken to meet the intent of
                   the recommendations, the problems with financial assistance awards
                   will continue to exist. Management's commitment to undertake the
                   review of its policies and procedures is a positive action.




Page 11                                           Recommendations and Comments
Appendix
SCOPE         The audit was performed at Golden and EERE from January 2000 to
              April 2001. The audit was limited to DOE financial assistance for
              biomass projects. We reviewed two cooperative agreements awarded
              by Golden from inception through April 2001.

METHODOLOGY   To accomplish the audit objective, we:

                 •   Interviewed Golden and DOE Headquarters personnel regarding
                     financial assistance regulations, policies, procedures, and
                     guidance;

                 •   Analyzed the award files for the two cooperative agreements;

                 •   Reviewed award decision documents and the extent of DOE's
                     review of project progress;

                 •   Reviewed Government Performance and Results Act
                     performance objectives, commitments, goals, and targets related
                     to the audit objective; and,

                 •   Discussed the results of the work performed with Golden and
                     DOE Headquarters personnel.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits, and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. We examined the
              internal controls regarding OFD's program goal, including preaward
              and postaward funding, and administrative controls. Because our
              review was limited, it would not necessarily have disclosed all internal
              control deficiencies that may have existed at the time of our audit. We
              did not conduct a reliability assessment of computer-processed data
              because we did not rely upon such data during the audit. An exit
              conference was held with cognizant Golden and DOE Headquarters
              officials on May 24, 2001.




Page 12                                                  Scope and Methodology
                                                                     Report No.: DOE/IG-0513


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
